No.

20°5819

IN THE
SUPREME COURT OF THE UNITED STATES

FILED
AUG 1 9 2020
OFFICE OF THE CLERK I
Wi IPPEME COURT U.S.J

KYLE DAMOND JONES
Petitioner,
v.
STATE OF TEXAS
Respondent.

PETITION FOR WRIT OF CERTIORARI

KYLE D JONES
American Citizen
219 W Cherry Point DR
Dallas, TX 75232
2149310428
zeitgeist997@gmail.com
Petitioner

LEGAL QUESTIONS
1. Can the state make medical care an area of diminished rights due to detainment?
2. Can the state deny a class of medication previously prescribed and still claim there is
no chance of duress?
3. Can the state prove guilt without a trial and go as taking charge of medical decisions
without a medical professional specifically gauging rather duress has occurred?
4. Can a court hired psychologist claim duress from general questions compiled from a
general psych exam not specific to mental disabilities such as ADHD or Asperger’s?
5. How does a duress claim from a plea deal defer from a false confession after a long
interrogation?
6. This country operates with intricate checks and balancing because of the possibility of
human error so can a state lack sound logic by issuing any decision that do not factor in
checks and balancing.
7. Is it okay for the state to use lower laws over the constitutional laws the supremacy
clause of Article VI Clause 2 demand the lower laws serve?
8. Can the state have actions that suggest it intends citizens to give up their civil rights
because employees of the state are overwhelmed?
9. Is it illegal for the state to not operate under the Supremacy Clause of Article 6 clause
2 of the constitution
10. Does the state have an increased burden of responsibility over a citizen which means
failure to meet standards are more egregious?
11. Does a violation of due process represents an inexcusable error that meets the
standards of a mistrial?
12. Do detainees being treated like those already convicted violate due process?
13. Is it reasonable to deduce that duress could be induced by a denial of 14th
amendment protected due process?
14. Can the Texas appeals court dismiss the decision of a lower court without having a
constitutionally sound basis and also without giving any reasoning?
15. Is it reasonable to believe that a state that uses lower laws to effectively gain a
temporary verdict that doesn't constitutionally hold up, damages a citizen?

LIST OF PARTIES
1. Kyle Damond Jones
2. the United States of America
3. the State of Texas
4. Dallas county
CORPORATE DISCLOSURE STATEMENT PURSUANT TO SUPREME COURT
RULE 29.6
None of the Respondents have a parent corporation, and there is no publicly held
company that ownslO% of more of their stock.
TABLES OF AUTHORITIES
I only needed to cite Brown v. Board of Education of Topeka, 347 U.S. 483 (1954). (CASES
INVOLVING FALSE CONFESSIONS ARE NOT NEEDED TO BE CITED BECAUSE
THOSE CASES INVOLVED A TRIAL HAPPENING AT SOME POINT.)

n

TABLE OF CONTENTS
Questions Presented

1.

Parties to the Proceeding

n.

Rule 29.6 Disclosure

u.

Table of Authorities

u.

Petition for a writ of appeals for the Supreme Court

1.

Opinions Below

1.

Jurisdiction

1.

Constitutional Provisions Involved

2.

Statement of the Case

3.

Reasons for Granting the Writ

4.

A. THE COURT SHOULD GRANT A WRIT BECAUSE THERE IS MANY STATE AND
FEDERAL ENTITIES ACTING WITHOUT FACTORING IN ARTICLE VI CLAUSE 2 OF
THE CONSTITUTION. WITH THE LOGIC THAT THOSE THAT LESS CAPABILITIES
CAN NOT FREELY THINK WITHOUT DIRECTION THIS COURT NEEDS TO
CORRECTLY AND ETHICALLY ADDRESS THE CONSTITUTIONAL SUPREMACY
AND THE MANDATE THAT THE CONSTITUTION CAN NOT CHANGE OR BE
IMPLIED TO CHANGE BY ANY LESSER PROCEDURES. TO GO OUTSIDE OF THAT
IS CRIMINAL BECAUSE IT DOES NOT SERVE THE BETTERMENT OF THE
COUNTRY AND ONLY SERVES THOSE WITH DUTIES ASSIGNED WHICH IN
PRACTICE MEANS THEY ARE ILLEGALLY PRIORITIZING THEIR CITIZENSHIP
BECAUSE THE MOST ACCURATE PROCEDURES ENSURES BETTERMENT SO TO
PUT SELF BEFORE THE BETTERMENT OF OTHERS SHOWS MORALLY IRREPREHENSIBLE BEHAVIOR THAT PUTS CITIZENS AT RISK.
4.
B. THE QUESTIONS PRESENTED NEED ANSWERS TO ENSURE THE RIGHTS OF
CITIZENS ARE NOT BEING ABUSED BY SELF SERVING TYPES WHO ARE TAKING
ADVANTAGE OF THE LACK OF AUTOMATIC OVERSIGHT IN COURTS. THE LEGAL
SYSTEM IS TECHNICAL AND THAT SHUTS OUT POORER CITIZENS. I HAVE A
STRONG LAYMAN’S VIEW OF THE LAW AND THE COMMON SENSE LOGIC
SHOULD TRUMP THE TECHNICAL FAUX PAUX’S. THE GOAL IS TO BE AS RIGHT
AND ACCURATE AS POSSIBLE AND THAT CREATES PROGRESSION AND LESS
ERRORS EVERYWHERE.
4.

in

C. TO MAKE THINGS STRAIGHT FORWARD I HAVE ELABORATED ON THE
INITIAL QUESTIONS WITH A CORRESPONDING NUMBER TIED TO THE
4.
ELABORATION POINT
D. A CITIZEN AWAITING TRIAL HAS A RIGHT TO RECEIVE EQUAL MEDICAL
CARE TO A CITIZEN NOT AWAITING TRIAL BECAUSE OF DUE PROCESS. THE
STATE OF TEXAS IS CLEARLY IN ERROR BY NOT PROVIDING ADHD MEDICINE
THAT WAS PRESCRIBED TO KYLE D JONES WHILE HE WAS AWAITING TRIAL
AND THAT (AMONG OTHER ACTS LISTED) CONTRIBUTED TO MEETING THE
STANDARDS OF BEING UNDER DURESS. I’VE EXPRESSED THIS POINT
4.
CONCISELY BY ELABORATING ON THE INITIAL QUESTIONS
E. THE STATE OF TEXAS IS WORKING WITH PROCEDURES NOT RESPECTING
THE SUPREMACY OF THE CONSTITUTION. RESPECTING THE SUPREMACY IS
WHAT ALLOWS CHECKS AND BALANCES IN STATE AND FEDERAL ENTITIES
UNDER THE CONSTITUTION. THE CITIZEN HAS THE JOB TO REPORT
UNCONSTITUTIONAL BEHAVIOR AND THE STATE OF TEXAS IS PROTECTING
IT’S OWN INTEREST WITH ACTS SUCH AS STATING A CITIZEN CAN NOT CLAIM
DURESS DUE TO INCARCERATION CONDITIONS WHEN THE CITIZEN HAS
VERIFIED MENTAL DISABILITIES SUCH AS ADHD AND ASPERGER’S. THE STATE
IS IGNORING THE STANDARD WITH DEALING WITH FALSE INTERROGATION
STANDARDS WHICH INCLUDE USING THE TRIAL STANDARD TO WEIGH THE
FACTUAL EVIDENCE WITH LOGIC. IN THE CASES ASSOCIATED WITH THIS
WRIT, THAT TRIAL STANDARD WAS NEVER MET THUS IT IS REASONABLE TO
CONCLUDE THAT THE STATE IS PROTECTING IT’S OWN INTEREST OVER
MEETING THE STANDARD OF SERVING CITIZENS FROM THAT ACT FACTUALLY
4.
HAPPENING.
Conclusion

9.

Appendix

A-l.

Exhibits

E-l.

IV

IN THE SUPREME COURT
Kyle D Jones
Petitioner
v.
State of Texas
Respondent
PETITION FORA WRIT OF CERTIORARI
Petitioner respectfully requests that a writ of certiorari be issued to review the decision of
the TEXAS STATE COURT OF APPEALS 5th DISTRICT in this case.
OPINIONS BELOW
Jones v State of Texas, (F-1853537-H, F-1853538-H and F-1822371-H) of Dallas county
2018 with decision in 2019 (formatting should not get in the way of an accurate
judgment because I feel these questions go beyond these cases and will help many people
and help the country run better).
Jones v State of Texas, (No. 05-19‘00414-CR, No. 05-19-00415-CR, No. 05-19-00416-CR)
5th District Appeals Court of Texas, 2020

JURISDICTION
The State of Texas had jurisdiction for cases F-1853537-H, F-1853538-H and F-1822371H. The state of Texas lumped all cases together out of an obvious motive based on what is
easier for self. The state is a tool to serve citizens and the way it serves is to implement
the constitution based on where the citizen resides. That service is a convenience for
citizens because during colonial days the technology was less. It is wrong for any state
employee (a judge and prosecutor are employees) to show self convenience over aligning
their goals with the intent of the United States of America.
The appeal was granted by the trial court on 4/4/2019 and then appeal number was
started by the Texas court of appeals. Appeal Nos. 05-19-00414-CR; 05-19-00415-CR; 0519-00416-CR. On April 1st 2020 the court denied the appeal without sound reasoning. I
filed a petition to have a discretionary review,
On JULY 28th 2020 the appeals court of TEXAS entered a judgment signed by judge
Robert Burns who was a trial judge that the defendant, Kyle D Jones, filed a ‘STATE
COMMISSION OF JUDICIAL CONDUCT’ complaint on. The decision had no rationale
stated.

1

The State of Texas have failed to show the ability to answer questions above the scope of
their laws. Their laws exist to serve under the constitution as the supremacy clause
dictates. So to have employees who have adopted the state as a surrogate for self and
then in turn ‘nay-say’ sound questions such as rather the supremacy of the constitution is
respected with their laws is a quintessential issue for the high court.
CONSTITUTIONAL PROVISIONS
The Supremacy Clause of Article VI Clause 2 is not factored in to the procedures and
laws of the state of TEXAS.
Article VI Clause 2 of the constitution clearly demands a constitutional basis for all
decisions attributed to a state . The interpretation presented with this document is that
the state is merely a tool to serve citizens where they reside and the powers of the state
were put in place only due to lack of resources and a lack of technology at the time of the
formation of this country. The lack of rapid communication forced the founding fathers to
allow states to have the power to interpret the constitution for citizens within the state
but the supremacy clause ensures that it is a clear error to even imply a new direction to
the constitution from the lower power of the state or any lower power under the
constitution.
Due process as clarified by the 14th amendment has also been violated due to the state
affirming guilt by straying outside the standard of the court. Again, false confessions
(which are undeniable so there should be no need to challenge that point without it
meeting the standard of being argumentative or just doing ‘busy work’ which I am
allowed to say as a laymen), have proven a standard of still needing a trial to decide the
merits of guilty so there is no constitutional basis for the state to fight for affirmed guilt
based on a mere signature on a form sheet of paper that has generic, unspecific wording
that claims guilt.
The 14th amendment’s due process is not involved because the state has shown a priority
to protect itself because of the motive that the state is overwhelmed so it has less of an
incentive to be concerned about an accurate judgments, decisions and verdicts which
violates due process. Also the sate has jails that do not respect the logic that someone
must have separate but equal treatment while awaiting trial to someone who is not
accused of a crime or awaiting trial that clearly deprives a citizen of liberty.
The 1st amendment is violated because the state has off the book drug laws that target
drug addicts with harsher sentences and treatment. The state falls back on not getting
caught. The state uses religious based doctrine to dismiss science which is why the state
does not prescribe ADHD medicine in their jails and prisons.
The State of Texas is in error in having unbiased checks and balances to ensure a no
margin of error judgment. The Supremacy Clause of the constitution calls for a
constitutional basis for all state and federal procedures so this court is the only court to
decide these constitutional questions and clarify the responsibility of the state to those
2

assigned duties on behalf of the state through the powers of the constitution, which as an
all encompassing document, states the agenda of the United States of America.
STATEMENT OF CASE
On approx. April 18th 2018 Kyle Damond Jones was arrested after calling the police to
report his vehicle colliding with a fleeing vehicle. After the police refused to take a theft
report Kyle D Jones called back and in a retaliatory move the officer said he was being
placed under arrest for ‘playing on the phone after being advised a theft report can not be
made’. Dallas county failed to meet bail demands the federal court will place and the
prosecutor used a previous email sent to a detective who advised that a unauthorized use
of a motor vehicle case will be pursued unless the defendant comply to be an informant.
The email contained demands to escalate to a superior and mentioned the lack of ethics
making a mockery of the justice system for self benefits took. Nothing criminal was listed
and it shows a clear, ‘us vs. them’ motive Dallas county and the state of Texas has when
the state and county only exists to serve citizens. After the judge, Dominique Collins
agreed she mentioned that Kyle Damond Jones ‘needs to stop giving them a hard time
because they put too much work in earning their law licenses to have (him) put them at
risk’ (with complaints) after that the defendant exercised civil liberties by warning
against the judge on social media and the judge recused herself and attorney Tom Cox
wrote that the defendant ‘was nuts’ on an official document to Dallas County’s mental
health division which caused them to deny the claim and judge Robert Burns went
outside of law with a clear motive of winning an election to intimidate a court
psychologist to rule the defendant incompetent going outside the legal standards as the
second opinion showed, which had no change of questions.
I have plenty of communications with my lawyer, Tom Cox showing I believed the
evidenced was insufficient. No new evidence was gathered when I was detained in county
jail so it is reasonable to deduce that the conditions and lack of medical treatment (such
as no ADHD medicine after I was prescribed ADHD by a doctor but the county refused to
give that class of medicine while detained which is a clear violation of due process
because someone not accuse of a crime would be able to freely go to a provider that allows
medication a medical professional recommends) caused the feeling of duress and there is
no constitutional basis for the state to deny my claim of duress other than those assigned
duties having a self benefit of working less by sticking to a false confession obtained due
to unconstitutional conditions which caused duress.
There’s no transcription due to the way Dallas has implemented the constitution within
the duties assigned by the United States of America to service citizens. There was no trial
and only a confession obtained under clear violations of due process and mental health
violations. On July 28th the court offered a ‘phantom opinion’ with no reasoning to deny a
review which oversteps the authority of any officer of the court because their job is to only
implement the constitution to facts before them thus issuing opinions without reasoning
shows a malicious intent of putting personal views over the constitution and merits the
standard of abuse of power. That reasonable deduction of abuse of power makes their
decisions nonbinding since it goes outside the scope of their duties. These individuals
3

meet the standards of employees and have standards to meet. There is a clear motive of
displaying that they have the power to force personal opinion to ignore areas of the
constitution. That’s proven with the lack of respect for checks and balances displayed by
blatantly ignoring the Supremacy Clause of the constitution which clearly implies that all
decisions must fit 100% under the constitution without exception.

REASONING FOR THE WRIT
There are many areas that state and federal entities fail to meet the standard expected of
them. They only exist to serve citizens but employees will put their personal interest over
the job duties which makes it an area where they are illegally prioritizing their
citizenship. That is a very real issue causing real problems in the United States of
America.
The state only had grounds of a signed admission of guilt which should legally fall in the
same area as a false confession, meaning that should never superseded the need for a
trial to go over all pertinent information to decide if an accurate judgment is derived.
I feel it is imperative to elaborate on all legal questions the court needs to answer to
ensure citizens are protected and stats are not in error by non-constitutional behavior
mass distributed to citizens. Here are my elaborations in co-ordinance with the number
in front of the questionThese are all important questions not commonly seen that needs answers to ensure the
union is running properly for all citizens. .
For question 1Can the state can decide that a detainee can not feel duress after the detainee claims.
Another issue is if duress occur from having an attorney fail to get a client in acounty's
mental health court?
For question 2Does the terms of limited rights for those incarcerated cover medical treatment? using
the standard set in the Brown v. Board of Education of Topeka, 347 U.S. 483 (1954), proof
of not having equal treatment (such as not having ADHD medicine giving which in itself
has scientific basis) is sufficient to prove that the medical care provided by Dallas county
was not equal so that is a 14th amendment violation.
For question 3:
The state has no medical experience and can not take control over scientific fact because
of self preservation. Another issue is the self preservation of not admitting a mistake to
avoid the effort of fixing a mistake shows a malicious intent that meets the standards
4

within reasonable deduction.
The state simply can not have ‘one size fits all’ approaches to sensitive issues that citizens
deal with like mental health/ So a broad psych exam can not determine specific issue that
require specialization like a citizen being under duress and I can have experts testify to
that if giving the opportunity.
For Question 4Can the state claim that there is no duress without having a medical professional
specifically testing for duress and not a general psych exam?
For question 5:
How is signing a deal different than a false confession. Does a violation of due process
meet the standards meet the standards of being ‘under duress’?
For question 6:
On July 31st a signed document by Lisa Katz witnessed by Rob Burns commanded me to
obey the state of Texas which is a clear intent that those involved with the document does
not respect the checks and balance system and feel there is no authority above their
authority because they're stepping over authority. That goes outside of their duties
assigned which means it is a nonbinding document.
Also, Can the state act as an accused is guilty before the appeals process is exhausted but
after the appeals have been initiated in a situation where no trial occurred?
If language of the charges are changed after an agreement to admit guilt, how can the
agreement still be valid especially if a trial to go over facts to prove guilt has never
happened?
Does the implied checks and balance that in place to lessen the potential for human error,
also governs the powers of a state?
Is it reasonable to conclude that citizens are intended to be the check and balance for all
state and federal procedures including laws as the supremacy Clause implies?
Since the United States is bigger than all living, do those with duties assigned at any
level (even at the high court) have a right to dismiss credible questions because a citizen
is a layman or lack resources to get legal help to their standards. That question is
relevant since the petitioner is disabled with Asperger's and is on a fixed income from
receiving Social Security disability.
For question 7Rather the state can defend itself against allegations like a citizen can. To elaborate only
individuals going outside of duties assigned can put illegal pride ahead of their assigned
5

duties and defend allegations against the state such as violations of civil rights and use 'a
catch me if you can' standard. Are the standards of the trial more than just ‘busy work’
because accurate analysis of facts using logic creates a less margin of error in decision
making? The most important thing is that I never had a trial so being granted appeal
rights should mean there’s a trial automatically to determine the validity of the evidence.
Does job assignments allow the individual to put their convenience over meeting the
goals of the job?
Can the state refuse to answer questions because they are new issues that will cause the
state to revise existing policies. (That's why the appeal was denied)
If the state can defend itself and assume guilt without the trial without violating the
implied checks and balances that are safe guards through out this country. In this
instance, can inconsistent logic be glossed over to have the case disposition due to the
state and county being overwhelmed with cases.
For question 8:
With the strength of citizenship in mind, is it fair to have a citizen risk potential wrongs
from public officials due to human error with the only recourse being technically precise
legal arguments? Does the high court has the power to create a new department with
unbiased lawyers in a similar nature to a large corporations legal department for citizens
to report all constitutional inconsistencies so there is less of a chance for a failure to
comply with the supremacy Clause of the United States Constitution?
For question 9:
Can the state be constitutionally compliant and use evidence that do not meet the trial
standard such as emails that are not threatening,to have harsher pretrial punishment on
a citizen?
Does the state have the power to supersede the Supremacy Clause and also checks and
balances by not providing a reason or denying a ‘petition of discretionary review.
For question 10:
Can a judge a defendant files a complaint on make a decision on the defendant on the
same case without recusing self?
For question 11:
Can due process be violated by Dallas county handing out protective orders that
erroneously call the complaining witness a victim before the trial. With contributing
factors mentioned in question 2 such as a mental disability and not receiving psychiatric
medicine (Vyvanse) while on custody to combat ADHD which scientifically impedes focus?
by a detainee not being allowed to go to school and having a bondamount not in line with
6

federal standards demanded upon Dallascounty? Can letters not being logged sent to the
court in defense ofcharges from a defendant cause a reasonable deduction of duress.
For question 12:
The standard of ‘innocent until proven guilty’ is clear. The fact that I as a layman knows
that makes the reasonable deduction of gross incompetence clear. To elaborate, until a
final decision all who are accused of a crime must be treated equal to those accused of a
crime. This is the only right area where separate but equal applies (you have to give
credit even though I only cited one case but I don’t need to cite a lot of cases cause I
understand intent well due to my Asperger’s and I brought it back tpo that case with
what I’m typing in this section). As long as someone accused of a crime is not denied any
rights as one not accused the state could never be in error. In the case of Dallas county,
they 3 or more facilities and have failed their standard by not having a facility for those
awaiting trial where they are bused to work or school (in this case, I, Kyle Jones was not
allowed to go to school and was told so bluntly when I was incarcerated and I did mention
it to the judge on September 14th 2018, Robert Burns). It is not constitutional to even
allow detainees to have to ask a judge to be permitted to go to school or work or church (I
am Jewish and put many notifications in to be able to go to Jewish service cause the
county jail did not have Jewish services so that violated my due process as well. So,
again, that is multiple violations of my due process which clearly can provide a
reasonable conclusion of duress. The fact that there’s nothing stopping a review of
evidence in a trial, since one was never had, proves the state is in error).
For question 13:
They could have a building for those awaiting transfer after conviction but they don’t
they blatantly treat all the same rather they are a detainee or convicted. There’s not a
more clear example of gross failure to meet responsibilities than that and that will stress
a citizen out and that stress meets the legal definition of duress.
For question 14:
The appeals court of Texas provides no elaboration. I am propositioning the logic that
even citing precedence without elaborating how the cases cited meets the constitutional
standard the supremacy clause lays out proves a failure to meet duties assigned (all
procedures in the USA must fit 100% under the constitution). So the proper way is to
state how the precedence is relevant. To state precedence alone is trying to game the
system because they want to avoid working further on a citizen’s case. That case could
affect the citizen’s life so that puts the one in charge of making the decision in error but
furthermore it puts the state in error by allowing the flawed individual to affect a citizen.
That flawed individual can not meet their job duties so calling them flawed is reasonable.
For question 15:
This question is crucial because so many citizens have been at risk by state’s taking
advantage of the supreme court not specifically answering this question.
7

(ii) any other opinions, orders, findings of fact, and conclusions of law entered in the case
by courts or administrative agencies, and, if reference thereto is necessary to ascertain
the grounds of the judgment, of those in companion cases (each document shall include
the caption showing the name of the issuing court or agency, the title and number of the
case, and the date of entry);
(iii) any order on rehearing, including the caption showing the name of the issuing court,
the title and number of the case, and the date of entry;
(iv) the judgment sought to be reviewed if the date of its entry is different from the date
of the opinion or order required in sub subparagraph (i) of this subparagraph;
(v) material required by subparagraphs 1(f) or l(g)(i); and
(vi) any other material the petitioner believes essential to understand the petition.
If the material required by this subparagraph is voluminous, it may be presented in a
separate volume or volumes with appropriate covers.
2. All contentions in support of a petition for a writ of certiorari shall be set out in the
body of the petition, as provided in subparagraph 1(h) of this Rule. No separate brief in
support of a petition for a writ of certiorari may be filed, and the Clerk will not file any
petition for a writ of certiorari to which any supporting brief is annexed or appended.
3. A petition for a writ of certiorari should be stated briefly and in plain terms and may
not exceed the word or page limitations specified in Rule 33.
4. The failure of a petitioner to present with accuracy, brevity, and clarity whatever is
essential to ready and adequate understanding of the points requiring consideration is
sufficient reason for the Court to deny a petition.
2.The State of Texas have failed to meet their standard per the duty of having procedures
that fit 100% under the constitution as demanded by Article VI Clause 2 of the
Constitution of the United States of America.
Evidence of this failure is including in the state of Texas omitting the standard of the
trial without sound constitutional precedence in treating a signed admission as cause for
not having a trial when in relation to a claim of duress that met the trial courts standard
to allow an appeal despite the agreed deal stating no appeal was allowed. The Texas
appeals court showed no legal basis to dismiss the lower courts opinion.
During the detainment for the offense 5 letters sent to the court and never logged in to
the court record. That caused clear frustration that meets the standards of duress.
During detainment I also was not giving ADHD medicine which allows focus so that
medical disability overrides any statement entered in court. It is akin to asking a
dehydrated one legged person to say they can walk in order to get a glass water.
3. It is important for definitive answers on these questions because the lives of citizens.
The interpretation of the constitution, taking as a whole, is that citizens have a right to
have accurate judgments so they’re not persecuted like those accused of being witches
befor ethe formation of this country were. Those people had no due process and was
convicted in sham trials with no science, logic or facts. This country was formed and is
designed to not allow that to ever happen again. So the tools to ensure that are due
process set yup through constitutional means. It is important to ensure the state looks at
the goals of the United States and tries to decide accurate judgments before the
8

convenience of serving itself. That means, the state can not try to quickly close out cases
and be biased to ignore facts just because the case has been closed out. Think of the
implications of that. Again, the case being closed out can not be used as an incentive to
not look deeper because that is taking away the possibility of human error. In the issue I
am bringing up the witness has giving a statement when before they had no statement
other than a flawed police report and two statements from different individuals but
worded the same,. That is not strong enugh evidence to imply guilt. To then go as far as
dismissing a disability of ADHD that had no treatment and say one would not sign a false
confession by agreeing to a deal is clear proof of not meeting the standards of the United
States. That standard is expected for the state to be in compliance.

CONCLUSION
The Supremacy Clause of the constitution is clear and if any state has employees, and
even worse, court officials and judges who do not factor in the supremacy clause or truly
understand checks and balances and that they can be in error due to not factoring in
everything, then that’s an issue that can effect every citizens God given rights for a
pursuit of happiness in this land of opportunity.
Accuracy and brevity is up for opinion so it would be specific examples set band a firm
formula for what constitutes that for it to factor out human error to dismiss questions
that could help citizens. These questions presented need clear answers and that should
be the most important factor or court officials have failed to meet duties assigned and
have not met their job standards. The questions listed are important enough to require
definitive answers. A constitutional (to respect the Supremacy Clause) would need to be
proven to show a writ can be denied due to anything other than questions that are
inappropriate for the court.
So this Writ of Certiorari should be granted due to the nationwide impact answering
these questions will have to fix deep seeded issues that are hurting and confusing many
citizens.
Respectfully,

Kyle Damond Jones
219 W Cherry Point DR
DALLAS TX 75232
214-931-0428
zeitgeist997@gmail.com

9

